~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioners in 20-1595, Naum
Morgovsky and Irina Morgovsky v. United States of
America, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
service and e-mail to the following parties listed below,
this 4th day of August, 2021:
ELIZABETH PRELOGAR
Counsel of Record
SOLICITOR GENERAL OF THE UNITED STATES
Room 5616
Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@usdoj.gov
Counsel for Respondent
ANNE M. VOIGTS
Counsel of Record
NOAHSTID
KING & SPALDING LLP
601 S. California Avenue
Suite 100
Palo Alto, CA 94304
(650) 422-6700
avoigts@kslaw.com
nstid@ksla w .com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

MARISA C. MALECK
KING & SPALDING LLP
1700 Pennsylvania Ave . NW
Washington, DC 20006
(202) 737-0500
mmaleck@kslaw.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 4, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date :

&seu.1,-/,-.1--J JOd/

c)rtv d. ~

Notary Public
[seal]

